February 2009
Report No. AUD-09-003


Material Loss Review of First Priority
Bank, Bradenton, Florida




            AUDIT REPORT
                                            Report No. AUD-09-003                                                                  February 2009

                                            Material Loss Review of First Priority Bank,
                                            Bradenton, Florida
 Federal Deposit Insurance Corporation      Audit Results
Why We Did The Audit                        FPB failed primarily due to bank management’s aggressive pursuit of asset growth concentrated in
                                            high-risk CRE loans with inadequate loan underwriting and a lack of other loan portfolio and risk
As required by section 38(k) of the         management controls. Resulting losses severely eroded FPB’s earnings and capital, and negatively
Federal Deposit Insurance (FDI) Act,        impacted liquidity, leading to the bank’s failure and a material loss to the DIF.
the Office of Inspector General (OIG)
conducted a material loss review of the     Management. FPB’s Board of Directors (BOD) did not ensure that bank management identified,
failure of First Priority Bank (FPB),       measured, monitored, and controlled the risk of the institution’s activities. In addition, the BOD did
Bradenton, Florida. On August 1, 2008,      not ensure that corrective actions were implemented in response to examiner and auditor
the State of Florida, Office of Financial   recommendations. Further, FPB developed a business plan governing its activities; however, the plan
Regulation (OFR), closed FPB and
                                            was not kept current or followed. Although rapid asset growth, declining asset quality, and poor
named the FDIC as receiver. On
                                            earnings further increased liquidity risk, bank management did not put into place the necessary controls
August 19, 2008, the FDIC notified the
OIG that FPB’s total assets at closing      for liquidity management, including an adequate contingency liquidity plan (CLP).
were $241 million, and the estimated
loss to the Deposit Insurance Fund          Asset Quality. FPB’s CRE/ADC loans were concentrated in a rapidly growing local marketplace. A
(DIF) was $72 million.                      significant portion of the loan portfolio included high-risk terms, such as high loan-to-value ratios,
                                            interest-only basis with balloon payments, and interest reserves used to capitalize interest expense.
The audit objectives were to                However, FPB did not follow sound loan underwriting standards and administration practices,
(1) determine the causes of the financial   including those pertaining to: (1) effectively identifying loan portfolio risk, (2) obtaining current
institution’s failure and resulting         appraisals and financial statements on borrowers and guarantors, (3) ensuring appropriate use and
material loss to the DIF and (2) evaluate   control over interest reserves, and (4) providing appropriate reports to the BOD on loan concentrations,
the FDIC’s supervision of the               speculative lending, and interest reserves. Also, FPB did not maintain a sufficient allowance for loan
institution, including implementation of    and lease losses (ALLL). As asset quality declined and losses were recognized, FPB’s liquidity
the Prompt Corrective Action (PCA)          position became critical, and earnings and capital were eroded.
provisions of section 38.
                                            Supervision. The FDIC and OFR conducted timely examinations of FPB. Additionally, the FDIC
Background                                  provided oversight through its off-site monitoring process and accelerated examinations as a result of
                                            identified deficiencies. As a result of the November 2006 examination, the FDIC delayed its approval
FPB was a state-chartered nonmember         of three FPB branch applications until FPB provided information on how the bank would address
bank insured on December 8, 2003. As        examination concerns. As a result of the September 2007 examination, and after various OFR and FPB
a de novo bank for its first 3 years in     discussions regarding the bank’s condition and proposed regulatory actions, the FDIC, in conjunction
operation, FPB was subject to additional    with the OFR, took supervisory action in February 2008 to address management’s failure to implement
supervisory oversight and regulatory        corrective actions in response to audit and/or examiner concerns. Such concerns included, but were not
controls, including the development and     limited to, inadequate management oversight, poor asset quality, the need to increase capital and
maintenance of a current business plan      improve earnings, an inadequate ALLL, noncompliance with laws and regulations, and an outdated
and increased examination frequency.        liquidity policy. Further, in March and May 2008, the FDIC notified FPB of applicable restrictions
With five branches in Florida, FPB
                                            under PCA when FPB fell below the well capitalized category, and in June 2008, the FDIC issued a
engaged principally in traditional
                                            PCA Directive. The FDIC has authority to take a wide range of supervisory actions. In the case of
banking activities within its local
marketplace, which experienced a
                                            FPB, however, supervisory actions were not always timely and effective in addressing the bank’s most
significant economic downturn starting      significant problems.
in 2006. FPB had no holding company,
subsidiaries, or affiliates.                The FDIC has taken steps to improve its supervisory review of business plans, oversight of financial
                                            institutions that have CRE loan concentrations and use interest reserves, and CLPs. However, FPB’s
FPB’s assets consisted principally of       loan documentation and administration deficiencies should have warranted greater concern during the
commercial real estate (CRE) loans,         2006 examination. Specifically, during that examination, FPB was in a de novo status; the loan
including a significant concentration in    portfolio had begun to deteriorate and was highly concentrated in high-risk CRE/ADC loans; loan
residential acquisition, development,       administration issues, identified as early as the FDIC’s 2004 examination, were uncorrected or in need
and construction (ADC) loans. The           of improvement; ALLL was inadequate; and FPB’s risk profile was increasing. Greater concern
FDIC has recognized the increased risk      regarding FPB’s loan documentation and administration deficiencies could have led to elevated
that CRE loans present to financial         supervisory attention and earlier supervisory action.
institutions and has issued guidance that
describes a risk management framework       The FDIC OIG plans to issue a summary report on the material loss reviews it is conducting and will
to effectively identify, measure,           make appropriate recommendations related to the failure of FPB and other FDIC-supervised banks at
monitor, and control CRE concentration      that time.
risk. That framework includes effective
oversight by bank management,
including the Board of Directors (BOD)      Management Response
and senior executives, and sound loan
underwriting, administration, and           DSC provided a written response to the draft report. DSC agreed with the OIG’s conclusions
portfolio management practices.             regarding the causes of FPB’s failure and resulting material loss and the supervisory activities related
                                            to FPB. DSC also agreed that the results of the November 2006 examination related to FPB’s loan
                                            documentation and administration deficiencies should have warranted greater supervisory action.

   To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                     Page


BACKGROUND                                                                     2

RESULTS IN BRIEF                                                               4

MANAGEMENT                                                                     6
  Ineffective BOD and Management                                               6
     Risk Management                                                           9
     Inadequate Actions for Apparent Violations of Regulatory Requirements     9
     Deviations from FPB’s Business Plan                                      10
     FPB Branch Offices                                                       11
     Lack of a Comprehensive CLP                                              12
  Regulatory Supervision Related to Management                                14

ASSET QUALITY                                                                 17
  Examiner Concerns and Recommendations Regarding Asset Quality               18
  Concentration in CRE and ADC Loans                                          20
    Interest Reserves                                                         21
    Allowance for Loan and Lease Losses                                       21
  Regulatory Supervision Related to Asset Quality                             23

IMPLEMENTATION OF PCA                                                         25

CORPORATION COMMENTS                                                          27

APPENDICES
  1.   OBJECTIVES, SCOPE, AND METHODOLOGY                                     29
  2.   GLOSSARY OF TERMS                                                      31
  3.   CORPORATION COMMENTS                                                   32
  4.   ACRONYMS IN THE REPORT                                                 35
TABLES
  1. Financial Condition of FPB                                                4
  2. Examples of Examiner Comments and Recommendations Regarding FPB’s         7
      BOD and Management Performance
  3. FPB’s Business Plan Compared to FPB’s Actions                            11
  4. FPB Application History and Examiner Concerns                            12
  5. FPB Asset Classifications and ALLL                                       17
  6. Examples of Examiner Comments and Recommendations Regarding FPB’s        19
      Asset Quality
  7. FPB Net Income or Loss                                                   22
  8. FPB Capital Stock Issuances                                              26

FIGURE
  FPB’s Composite, Management, Asset Quality, and Liquidity Ratings            3
Federal Deposit Insurance Corporation                                                           Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     February 18, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of First Priority Bank, Bradenton,
                                          Florida (Report No. AUD-09-003)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss 1 review of the failure of First
Priority Bank (FPB), Bradenton, Florida. On August 1, 2008, the State of Florida, Office
of Financial Regulation (OFR), closed FPB and named the FDIC as receiver. On
August 19, 2008, the FDIC notified the OIG that FPB’s total assets at closing were
$241 million, and the estimated loss to the Deposit Insurance Fund (DIF) was
$72 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA), ascertains why
the institution’s problems resulted in a material loss to the DIF, and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision 2 of
the institution, including implementation of the PCA provisions of section 38.
Appendix I contains details on our objectives, scope, and methodology; Appendix 2




1
  As defined by section 38 of the FDI Act, a loss is material if it exceeds the greater of $25 million or
2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    contains a glossary of terms. The FDIC’s response to the draft of this report is contained
    in Appendix 3. Acronyms used in the report are listed in Appendix 4. This report
    presents the FDIC OIG’s analysis of FPB’s failure and the FDIC’s efforts to require
    FPB’s management to operate the bank in a safe and sound manner. The FDIC OIG is
    performing similar analyses regarding the failure of other FDIC-supervised financial
    institutions. A planned capping report will summarize our observations on the major
    causes, trends, and common characteristics of failures resulting in a material loss to the
    DIF. Recommendations in the capping report will address the FDIC’s supervision of the
    institutions, including implementation of the PCA provisions of section 38.


BACKGROUND

    FPB was a state-chartered nonmember bank, which received approval to open for
    business on March 27, 2003 subject to certain conditions by the OFR. The bank was
    insured by the FDIC effective December 8, 2003. FPB, which was headquartered in
    Bradenton, Florida:

            •   had a total of five branches in Bradenton, Sarasota, and Venice, Florida;

            •   provided traditional banking activities within its marketplace;

            •   specialized in commercial lending, with concentrations in commercial real
                estate (CRE), including acquisition, development, and construction (ADC)
                loans; and

            •   used jumbo certificates of deposit (CD), brokered deposits, Internet deposits,
                and Federal Home Loan Bank (FHLB) borrowings as funding sources, in
                addition to core deposits, to fund asset growth.

    FPB did not have a holding company, subsidiaries, or affiliates. FPB’s local marketplace
    was, at one time, characterized by rapidly appreciating real estate values. However, real
    estate values experienced a significant downturn, causing severe deterioration in FPB’s
    asset value, excessive operating losses, and severely eroded capital, and the real estate
    construction industry was negatively impacted.

    DSC’s Atlanta Regional Office (ARO) and OFR alternated safety and soundness
    examinations of FPB, conducting six examinations from June 2004 through May 2008. 3
    DSC also conducted a visitation concurrently with an OFR examination during June 2004
    and another visitation during August 2007. At the September 2007 examination, FPB’s




    3
     The FDIC Report of Examination (ROE) for the May 5, 2008 examination was a draft report and was not
    officially issued to FPB.
                                                       2
composite rating was downgraded to 4, 4 indicating unsafe and unsound practices or
conditions and a distinct possibility of failure if such conditions and practices were not
satisfactorily addressed and resolved. As a result of the May 2008 examination, FPB’s
composite rating was downgraded to 5, indicating extremely unsafe and unsound
practices or conditions; critically deficient performance, often with inadequate risk
management practices; and great supervisory concern. Institutions in this category pose a
significant risk to the DIF and have a high probability of failure.

Further, with respect to selected component ratings, as indicated in the figure below, at
the November 2006 examination, FPB’s management rating was downgraded to 3, and
asset quality was downgraded to 2. At the following September 2007 examination,
FPB’s asset quality ratings were downgraded to 4. As a result of the May 2008
examination, examiners downgraded FPB’s asset quality and liquidity ratings to 5.
                                       FPB's Composite, Management, Asset Quality, and Liquidity Ratings


                                  5
                                  1



                                  42
    Ratings (Highest to Lowest)




                                  3
                                  3                                                                         Composite Rating
                                                                                                            Management Rating
                                                                                                            Asset Quality Rating
                                                                                                            Liquidity Rating
                                  2
                                  4



                                  15




                                  0

                                         June 04      Dec 04     Nov 05     Nov 06     Sept 07     May 08
                                         Source: ROEs for FPB.




To address examination concerns, including apparent violations of laws and regulations,
inadequate risk management controls, and other safety and soundness issues, the OFR
and the FDIC jointly issued a Memorandum of Understanding (MOU) in February 2008,
and the FDIC issued a PCA Directive to FPB in June 2008. Additionally, in February


4
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.
                                                                              3
     2008, the FDIC notified FPB that the Corporation considered the bank to be in “troubled
     condition” and added the institution to the FDIC’s formal problem bank list.

     Details on FPB’s financial condition, as of June 2008, and for the 5 preceding calendar
     years follow in Table 1.

     Table 1: Financial Condition of FPB
                                            30-Jun-08   31-Dec-07   31-Dec-06   31-Dec-05   31-Dec-04   31-Dec-03
     Total Assets ($000s)                   $258,610    $262,563    $245,343    $140,550     $63,165     $11,136
     Total Deposits ($000)                  $226,698    $231,389    $211,019    $124,566     $55,735     $2,941
     Total Loans ($000s)                    $189,108    $207,872    $192,699    $122,618     $44,771      $199
     Net Loans and Leases Growth Rate        -9.43%      3.61%       55.75%       175.51%     NA          NA
     Net Income (Loss) ($000s)              ($12,448)   ($18,997)    ($546)       $19        ($961)      ($432)
     Loan Mix (% of Avg. Gross Loans):
     All Loans Secured by Real Estate        84.77%      82.32%      85.90%      90.34%      86.07%      44.22%
      Construction and Development           34.53%      31.11%      22.99%      19.32%      19.06%      0.00%
      CRE - Nonfarm/ nonresidential          30.71%      32.28%      44.37%      49.46%      42.74%      0.00%
      Multifamily Residential Real Estate    3.04%       2.22%       1.71%       3.01%       5.04%       0.00%
      1-4 Family Residential – excluding     8.77%       8.34%       7.05%       6.10%       6.24%       44.22%
      Home Equity Lines of Credit
       Home Equity Loans                     7.72%       8.37%       9.78%       12.46%      12.97%      0.00%
     Construction and Industrial Loans       11.76%      15.80%      13.17%      8.62%       12.05%      51.76%
     Adverse Classifications Ratio            403%        129%        16%          0%          0%          0%

     Source: Uniform Bank Performance Report (UBPR) and ROEs for FPB.



RESULTS IN BRIEF

     FPB failed primarily due to bank management’s aggressive pursuit of asset growth
     concentrated in high-risk CRE loans with inadequate loan underwriting and a lack of
     other loan portfolio and risk management controls. Resulting losses severely eroded
     FPB’s earnings and capital, and negatively impacted liquidity, leading to the bank’s
     failure and a material loss to the DIF. Specifically:


     Management. FPB’s Board of Directors (BOD) did not ensure that bank management
     identified, measured, monitored, and controlled the risk of the institution’s activities. In
     addition, the BOD did not ensure that corrective actions were implemented in response to
     examiner and auditor recommendations. Although FPB developed a business plan
     governing its activities, the plan was not kept current or followed. Further, FPB rapidly
     expanded branch and lending operations without sufficient attention to associated risk
     management controls. Although rapid asset growth, declining asset quality, and poor
     earnings further increased liquidity risk, bank management did not put into place the




                                                              4
necessary controls for liquidity management, including an adequate contingency liquidity
plan (CLP). 5


Asset Quality. FPB’s CRE/ADC loans were concentrated in a rapidly growing local
marketplace. A significant portion of the loan portfolio included high-risk terms, such as
high loan-to-value ratios, interest-only with balloon payments, and interest reserves used
to capitalize interest expense. However, FPB did not follow sound loan underwriting
standards and administration practices, including those pertaining to: (1) effectively
identifying loan portfolio risk; (2) obtaining current appraisals and financial statements
on borrowers and guarantors; (3) ensuring appropriate use and control over interest
reserves; and (4) providing appropriate reports to the BOD on loan concentrations,
speculative lending, and interest reserves. Also, FPB did not maintain a sufficient
allowance for loan and lease losses (ALLL). As asset quality declined and losses were
recognized, FPB’s liquidity position became critical, and earnings and capital were
eroded.


Supervision. The FDIC and OFR conducted timely examinations of FPB. Additionally,
the FDIC provided oversight through its off-site monitoring process and accelerated
examinations as a result of identified deficiencies. As a result of the November 2006
examination, the FDIC delayed its approval of three FPB branch applications until FPB
provided information on how the bank would address those examination concerns. As a
result of the September 2007 examination, and after various discussions between OFR
and FPB regarding the bank’s condition and proposed regulatory actions, the FDIC, in
conjunction with the OFR, took supervisory action in February 2008 to address
management’s failure to implement corrective actions in response to audit and examiner
concerns. Such concerns included, but were not limited to, inadequate management
oversight, poor asset quality, the need to increase capital and improve earnings, an
inadequate ALLL, noncompliance with laws and regulations, and an outdated liquidity
policy. Further, in March and May 2008, the FDIC notified FPB of applicable
restrictions under PCA when FPB fell below the well capitalized category, and in June
2008, the FDIC issued a PCA Directive. The FDIC has authority to take a wide range of
supervisory actions. In the case of FPB, however, supervisory actions were not always
timely and effective in addressing the bank’s most significant problems.

The FDIC has taken steps to improve its supervisory review of business plans, oversight
of financial institutions that have CRE loan concentrations and use interest reserves, and
CLPs. However, FPB’s loan documentation and administration deficiencies should have
warranted greater concern as a result of the 2006 examination. Specifically, during that
examination, FPB was in a de novo 6 status; the loan portfolio had begun to deteriorate
and was highly concentrated in high-risk ADC loans; loan administration issues,
identified as early as the FDIC’s 2004 examination, were uncorrected or in need of
5
  DSC uses the terms contingency liquidity plan, liquidity contingency plans, and contingency funding
plans interchangeably. For purposes of this report, we use the term contingency liquidity plans.
6
  De novo institutions are subject to additional supervisory oversight and regulatory controls, including the
development and maintenance of a current business plan and increased examination frequency.
                                                       5
      improvement; ALLL was inadequate; and FPB’s risk profile was increasing. Greater
      concern regarding FPB’s loan documentation and administration deficiencies could have
      led to elevated supervisory attention and earlier supervisory action.


MANAGEMENT

      Examinations in 2004 and 2005 resulted in a 2 rating for FPB management. At
      subsequent examinations, the rating was progressively downgraded, indicating deficient
      BOD and management performance, risk management practices that were inadequate,
      and excessive risk exposure. By 2006, the bank’s problems and significant risks had
      been inadequately identified, measured, monitored, or controlled and required immediate
      action by FPB’s BOD and management to preserve the safety and soundness of the
      institution. In addition, FPB rapidly expanded the bank’s branch operations without
      regard to loan documentation and administration deficiencies and the inadequacy of other
      risk management controls.


Ineffective BOD and Management

      Examiner concerns with FPB’s BOD and management were noted at the bank’s
      examinations conducted in 2004 and 2005, including concerns related to excessive
      growth; noncompliance with laws and regulations and the OFR and FDIC final orders
      regarding the bank’s charter and deposit insurance approval; and FPB’s business plan. 7
      Many of those issues continued throughout the bank’s existence. FPB examinations
      showed a continuing pattern of inadequate risk management for the loan portfolio,
      beginning with the first examination in June 2004; growing severity regarding the lack of
      loan documentation; inadequate loan administration; and significant loan portfolio
      deterioration, culminating in an increasing risk profile for the institution. The loan
      documentation and administration deficiencies were repeated and compounded as noted
      in the 2005 through 2008 examinations. Table 2, which follows, provides examples of
      examiner comments and recommendations related to FPB’s BOD and management.




      7
        The FDIC’s amended order granting deposit insurance required that FPB operate within the parameters of
      the bank’s business plan submitted to the FDIC and that FPB notify DSC’s Regional Director of proposed
      major deviations or material changes 60 days before consummation of the change.
                                                           6
Table 2: Examples of Examiner Comments and Recommendations Regarding FPB’s BOD and Management Performance
                                    Examiner Comments                                                    Examination and Visitation Dates
                                                                                                 June   Dec   Nov     Nov     Aug     Sept   May
                                                                                                 2004   2004 2005 2006 2007* 2007            2008
Overall conclusion on BOD and management performance
 • Satisfactory                                                                                   9      9      9
 • Improvement needed and failure to adequately identify, measure, monitor, and/or control                             9       9      9       9
   risks
Compliance with laws and regulations
 • Apparent violations                                                                            9      9      9      9       9      9       9
 • Noncompliance with the OFR Final Order or FDIC Final Order of Approval for Deposit             9      9
   Insurance
Growth of FPB operations
 • Loan growth was aggressive, significant, or faster than anticipated                            9      9             9       9      9       9
 • Loan portfolio was concentrated in CRE/ADC high-risk loans                                            9             9       9      9       9
 • Loan growth far exceeded deposit growth                                                                      9
 • Rapid growth in bank operations, including branch operations, with inadequate monitoring                            9       9      9       9
Loan documentation and administration
 • Inadequate reporting on concentration by collateral types, industry, and geographic            9                    9       9
   locations
 • Inadequate documentation of appraisal reviews and approval of loans, and/or inconsistent       9             9
   documentation included in loan files
 • Deficient loan administration, loan portfolio monitoring systems, or concentration policies           9      9              9              9
 • Inadequate financial information on borrowers and documentation of real estate liens                  9
 • Inadequate cash flow analyses for the loan underwriting process                                              9
 • Inadequate risk management controls, including inadequate audit oversight                                           9       9      9       9
 • Inadequate documentation of loan deficiencies and follow-up activities                                       9
 • Deterioration of asset quality, including increases in adversely classified items                                   9       9      9       9
 • Inadequate methodology for determining the ALLL                                                9                            9      9       9
 • Inadequate ALLL                                                                                                     9       9      9       9
 • Inadequate attention to, and implementation of, examiner and/or auditor recommendations                             9       9      9       9
 • Inadequate staffing of loan department or management succession plan                                                9       9      9
 • Asset quality negatively affected by economic downturn or potential adverse effect                                  9       9      9       9
   identified

Earnings
  • Improvement needed                                                                            9                    9       9      9       9
  • Significant operating losses identified                                                                            9       9      9       9
Liquidity
  • Strong or satisfactory                                                                        9      9      9      9       9      9
  • Adequate reserves or funding sources to address anticipated funding needs                     9      9             9
                                                                        7
                                    Examiner Comments                                                     Examination and Visitation Dates
                                                                                                 June    Dec   Nov     Nov     Aug     Sept         May
                                                                                                 2004    2004 2005 2006 2007* 2007                  2008
  • Additional collateral required for lines of credit with national banks and the FHLB due to                                                       9
    the bank’s declining financial condition
  • Inadequate sources for funding due to the bank’s troubled financial condition, negative                                                           9
     publicity, and the potential for a run on deposits
Examiner recommendations
  • Become more familiar with applicable laws and regulations/repeat violations reported         9       9       9         9                          9
  • Revise operating plans, obtain BOD approval and document in BOD minutes                      9
  • Evaluate the increasing risk associated with continued aggressive growth                                     9         9
  • Improve reports on concentrations, speculative lending, and/or interest reserves             9                         9        9
  • Develop and implement a comprehensive ADC and investment loan risk management                                                           9
     system
  • Improve practices and procedures in loan administration and internal routines and controls                   9         9                9         9
Source: FPB ROEs issued by OFR and the FDIC and the FDIC’s August 2007 visitation results.
* In August 2007, the FDIC conducted a visitation, which accelerated OFR’s 2007 examination and identified substantial deterioration in FPB’s condition.




                                                                                8
Risk Management. FPB did not ensure that adequate risk management controls were
implemented and followed and did not implement corrective actions in a timely manner
to adequately address deficiencies identified by examiners and auditors related to the
bank’s inadequate risk management controls for loan documentation, administration, and
monitoring.

FPB’s loan policy stated that the bank would avoid concentrations of credit, defined as
loans or certain groups of loans which, when aggregated, exceeded 25 percent of the
bank’s equity capital and reserves, including combinations of loans secured by types of
collateral that were particularly vulnerable to volatile market conditions. However, in
contravention of this policy, FPB’s BOD and senior management focused on a strategy of
aggressively growing the bank’s assets, consisting primarily of high-risk CRE loans with
a heavy concentration in ADC loans. As early as the December 2004 examination, FPB’s
CRE loans totaled nearly 65 percent of the loan portfolio. Total assets from June 2004
through June 2008 grew, on a cumulative basis, over 516 percent from $41 million to
over $258 million, with the majority of the growth occurring in 2004 through 2006—
during FPB’s de novo period. However, given such growth and an increased risk profile
that resulted from FPB’s BOD and management’s decision to pursue such lending
activity, the bank did not adequately identify, measure, monitor, and report regularly to
the BOD on these concentrations, speculative lending, and interest reserves.

The September 2007 ROE noted that while FPB had made some improvement, the bank’s
overall portfolio risk identification, measuring, monitoring, and reporting practices were
ineffective. In fact, inadequate loan documentation and administration were also
identified and reported by examiners in the bank’s last examination report dated May
2008. Specifically, the FDIC’s May 2008 examination concluded that during FPB’s brief
history, the bank had operated with an aggressive loan growth strategy that included
poorly structured and underwritten real-estate-dependent loans in a highly competitive
market. The decline in real estate values and construction activity had resulted in many
projects being delayed or abandoned. Nevertheless, because the bank’s risk management
and loan administration practices were inadequate, the BOD was slow to recognize the
increasing risk in FPB’s loan portfolio and lending program as residential real estate
values started to decline.


Inadequate Actions for Apparent Violations of Regulatory Requirements.
Beginning with the bank’s June 2004 examination, examiners cited FPB for apparent
violations of laws and regulations related to loans to directors and officers, appraisals,
and minimum capital requirements; contraventions of interagency policies on supervisory
loan-to-value limits and ALLL; and noncompliance with regulatory orders. According to
the DSC Risk Management Manual of Examination Policies (Examination Manual), an
institution’s BOD and management should implement appropriate policies and
procedures to effect compliance, detect instances of noncompliance, institute corrective
measures, and provide adequate training and retraining of officers and employees to
prevent future infractions. Further, the Examination Manual states that it is important



                                            9
that the correction of all apparent violations of laws and regulations be instituted
promptly, regardless of their perceived importance.

With respect to the regulatory orders, FPB did not comply with specific conditions
included in the following:

   •   The FDIC’s Final Order of Approval for Deposit Insurance related to significantly
       deviating from the bank’s business plan by exceeding loan growth projections
       during the first year of operation without prior notification to the FDIC.

   •   OFR Final Order related to (1) notifying the OFR of FPB’s proposed employment
       of individuals as executive officers or equivalent positions, (2) providing copies of
       employment agreements or contracts, and (3) submitting a revised business plan
       and financial projections to OFR within the first 6 months of FPB’s operations.

FPB’s BOD and management failed to implement adequate controls to ensure
compliance with laws, regulations, and other regulatory requirements, even though
apparent violations were reported in each of the bank’s six examinations.


Deviations from FPB’s Business Plan. Contrary to the FDIC’s final order approving
FPB’s deposit insurance, FPB significantly deviated from its business plan by quickly
exceeding financial projections and budgets and realizing net losses during its de novo
period that were significantly higher than planned losses. In addition, FPB disregarded
loan documentation and administration controls that were outlined in its business plan.
Further, the bank’s business plan indicated that the bank planned to make commercial,
residential, and construction loans, including real estate acquisitions and improvements;
however, the plan did not provide information regarding FPB’s intentions to concentrate
its loan operations in CRE/ADC loans, which can present high risks for institutions, and
rapidly expand by opening five branch offices. FPB also did not follow certain risk
management controls outlined in its business plan that impacted its lending policy and
practices.

Proposed financial institutions are expected to submit business plans with their initial
applications for federal deposit insurance. According to the FDIC Statement of Policy on
Applications for Deposit Insurance, and in compliance with sections 5 and 6 of the
FDI Act, the FDIC must be assured that the proposed institution does not present an
undue risk to the DIF. The FDIC expects that proposed institutions will submit a
business plan commensurate with the capabilities of its management and the financial
commitment of the incorporators. Any significant deviation from the business plan
within the first 3 years of operation—the de novo phase—must be reported by the insured
depository institution to the primary federal regulator before consummation of the
change. Business plans that rely on high-risk lending, a special-purpose market, or
significant funding from sources other than core deposits, or that otherwise diverge from
conventional bank-related financial services, require specific documentation as to the
suitability of the proposed activities for an insured institution. Similarly, additional


                                             10
documentation of a business plan is required where markets to be entered are intensely
competitive or economic conditions are marginal. Business plans also include
information on projected financial data for a 3-year period.

Soon after FPB’s opening, examiners concluded that the bank had significantly deviated
from its business plan and initial financial projections, and FPB’s asset growth had
quickly exceeded the revised October 2003 projections. FPB’s July 2004 revised
business plan and financial projections reflected the significant deviations which
included, but were not limited to (1) increased asset growth, (2) expanding branch office
operations, and (3) an additional capital infusion. In addition, FPB did not follow risk
management controls outlined in the bank’s business plan related to its loan portfolio (see
Table 3 for examples).

Table 3: FPB’s Business Plan Compared to FPB’s Actions
                FPB’s Business Plan                                                FPB’s Actions

Follow a conservative lending policy that permitted        FPB pursued a liberal lending strategy and relaxed
prudent risks.                                             underwriting practices that included aggressively growing the
                                                           bank’s CRE/ADC loan portfolio and expanding branch
                                                           operations.

Commit funds to asset products with low loan risk.         FPB aggressively pursued high-risk CRE/ADC loans that
                                                           significantly increased the bank’s risk exposure and ALLL and
                                                           negatively impacted earnings and capital.

Exercise care and good judgment in underwriting            FPB’s BOD and management failed to ensure that appropriate
loans (including underwriting loans on the basis of        loan documentation and administration risk management
the borrower’s ability to repay the loan from the cash     controls were implemented and followed, took actions that
flow of the business, obtaining appraisals at the time     negatively affected the quality of the bank’s assets, failed to
loans are originated, maintaining an adequate ALLL,        maintain an adequate ALLL, and allowed adversely classified
and limiting the level of classified assets to less than   assets to exceed 400 percent of total capital prior to failure.
1 percent of the assets).
Source: FPB’s business plan, ROEs, and OIG analysis.



FPB Branch Offices. FPB’s original business plan was conservative; however, the bank
soon departed from its plan and embarked on an aggressive growth/branching strategy.
Of particular note is the bank’s decision to rapidly expand branch operations. As
indicated in Table 4, applications for three FPB branch offices were submitted, accepted,
and approved by the FDIC after its November 2006 examination began, during which
significant examiner concerns regarding the bank’s compliance with laws and
regulations, loan administration and documentation, CRE/ADC concentration, inadequate
ALLL, inadequate BOD and management performance, deviations from the banks
business plan, and weak earnings were reported.




                                                      11
Table 4: FPB Application History and Examiner Concerns
                          Application Status                   Branch
                                                                Office
              Submitted        Accepted        Approved
FPB Branch                                                     Opened       Significant Examination Concerns
    1              8/4/2004      8/20/2004      8/30/2004      2/23/2006   Violations of laws and regulations.
                                                                           Loan administration and
                                                                           documentation deficiencies.
                                                                           Earnings were weak and resulted in a
                                                                           net loss.

     2            10/4/2005      10/6/2005      11/4/2005       7/5/2006   Violations of laws and regulations.
                                                                           Loan administration and
                                                                           documentation deficiencies.
                                                                           Examiners downgraded liquidity.


     3           12/27/2006       2/1/2007      3/16/2007      4/30/2007   Violations of laws and regulations.

     4           12/27/2006       2/1/2007      3/16/2007      5/21/2007   Significant loan documentation and
                                                                           administration deficiencies.
     5            3/20/2007       5/3/2007          6/4/2007   7/16/2007
                                                                           Decline in FPB’s asset quality, with
                                                                           noticeable loan portfolio deterioration.

                                                                           FPB’s rapid growth not adequately
                                                                           monitored or managed by the BOD
                                                                           and management, and the BOD and
                                                                           management needed to improve
                                                                           performance.


Source: An FDIC Supervisory History memorandum and ROEs for FPB.



During the November 2006 examination, the examiner noted that aggressive branching
plans underscored the need to significantly improve the loan review and administration
functions. Further, during the examination, the bank’s chief loan officer resigned,
creating additional loan monitoring challenges. Within its short existence, FPB opened
five branch offices and three loan production offices (LPO) without adequate
consideration of examiner concerns regarding the bank’s loan documentation and
administration and other risk management control weaknesses and inadequate monitoring
and management of the bank’s growth. In addition, FPB’s additional branch offices
increased the bank’s overhead costs; placed additional strain on earnings, which had been
historically weak; and contributed to the bank’s increasing reliance on non-core deposits
to fund its asset growth.


Lack of a Comprehensive CLP. FPB did not implement sound liquidity risk
management controls that included a comprehensive CLP. As a result, when FPB’s
asset quality severely deteriorated, the bank’s liquidity position was impacted by
negative publicity related to the bank’s financial condition. According to the

                                               12
Examination Manual, CLPs should be in force and should include strategies for handling
liquidity crises and procedures for addressing cash flow shortfalls in emergency
situations. The manual also states that financial institutions should have an adequate
CLP in place to manage and monitor liquidity risk, ensure that an appropriate amount of
liquid assets is maintained, measure and project funding requirements during various
scenarios, and manage access to funding sources.

FPB demonstrated warning indicators that should have prompted FPB of the need for a
comprehensive CLP and increased monitoring of the bank’s liquidity position by the
bank’s BOD and management. For example, FPB exhibited indicators such as:

       •   rapid asset growth funded,
       •   a decline in earnings performance or projections,
       •   a decline in asset quality, and
       •   real or perceived negative publicity.

The FDIC issued Financial Institution Letter—FIL-59-2003—entitled, Use of the
Federal Reserve’s Primary Credit Program in Effective Liquidity Management, dated
July 23, 2003, which provides interagency guidance on the need for financial institutions
to develop CLPs, in addition to other liquidity risk management controls, and informs
depository institutions that a contingency plan should be part of the bank’s liquidity
management program. In addition, the Examination Manual includes 13 suggested
elements that should be included in CLPs. However, FPB’s CLP included only 3 of
those 13 elements. FPB’s CLP identified sources of funding but did not identify the
conditions related to their use and circumstances where the institution might use them.
For example, the CLP did not:

   •   define responsibilities and decision-making authority,
   •   include an assessment of the possible liquidity events that an institution might
       encounter,
   •   detail how management would monitor for liquidity events, and
   •   identify and assess the adequacy of contingent funding sources.

Further, FPB’s CLP was not diversified to allow consideration of potential providers of
funds and the underlying stability, availability, and flexibility of funding sources.

FPB’s BOD and management had failed to implement adequate controls to monitor the
bank’s liquidity risk. The September 2007 examination identified significant
deterioration in FPB’s loan portfolio, a high level of adverse classifications, significant
downgrades in loans from the bank’s internal watch list, and an inadequate ALLL. After
October 2007, FPB’s asset liability committee failed to monitor, strategize, and
otherwise plan for FPB’s liquidity needs, even though the bank’s financial condition was
severely deteriorating.



                                            13
      FPB’s loan portfolio deterioration became even more critical after the bank’s September
      2007 examination, which identified significant deterioration in FPB’s asset quality.
      FPB’s liquidity position was monitored solely by the chief financial officer, who
      managed the bank’s liquidity by focusing almost exclusively on maintaining sufficient
      liquidity to avert a crisis. As FPB’s financial position continued to deteriorate due to
      poor asset quality, the bank’s liquidity position was adversely affected. Specifically,
      FPB’s net interest margin declined, and earnings and capital positions were adversely
      affected. In addition, FPB was required to pledge investment securities to secure the
      bank’s lines of credit. Further, the bank lacked adequate controls and potential sources
      to address liquidity shortfalls and the resultant crises, and negative publicity impacted
      the bank’s liquidity position.


Regulatory Supervision Related to Management

      According to the Examination Manual, the quality of management is probably the single
      most important element in the successful operation of a bank. The BOD is responsible
      for formulating sound policies and objectives for the bank, effective supervision of its
      affairs, and promotion of its welfare, while the primary responsibility of senior
      management is implementing the BOD’s policies and objectives in the bank’s day-to-day
      operations. Also according to the manual, the capability and performance of
      management and the BOD is rated based upon, but not limited to, an assessment of
      compliance with laws and regulations.

      Generally, FPB provided written responses to each examination and promised corrective
      actions, and examiners generally followed up on any recommendations at the next
      examination. However, in response to the 2006 examination, the FDIC followed up with
      FPB between examinations, requiring FPB to provide information on addressing the 2006
      examination loan administration and documentation issues and improving earnings (both
      management and earnings were rated 3 at the 2006 examination). In its response to the
      FDIC on January 29, 2007, FPB stated it had taken steps to hire new management,
      including a chief credit officer and commercial loan portfolio manager; increased the loan
      department staff; and initiated actions to improve loan administration. Although the
      FDIC accepted FPB’s response, FPB failed to implement actions to sufficiently address
      the 2006 examination results and to prevent the continued deterioration of FPB’s
      financial condition.

      In addition, according to the DSC Case Manager Procedures Manual, the risk posed by
      any particular institution is a function of the business plan pursued, management’s
      competency in administering the institution’s affairs, and the quality and implementation
      of risk management programs. Regarding FPB’s business plan, examiner concerns
      seemed to focus on the bank’s financial projections and did not include an assessment of
      FPB’s planned business strategy and risk management controls compared to the bank’s
      actual practices. Although DSC required FPB to provide updated financial and budget
      data, DSC did not require FPB to provide a revised business plan that addressed the
      bank’s concentrations in CRE/ADC loans that presented high risks to the bank and the


                                                  14
bank’s plan to mitigate such risk through appropriate loan documentation, administration,
and lending strategies.

Regarding FPB’s branch office activities, examiners downgraded FPB’s management and
earnings ratings from 2 to 3 and downgraded asset quality from 1 to 2 as a result of the
2006 examination. According to the DSC Case Manager Procedures Manual, an
application can be removed from expedited processing if DSC determines that the bank’s
application presents significant supervisory concerns, including a management rating
of 3. Accordingly, after the November 2006 examination, the FDIC removed three FPB
branch applications (for FPB’s third, fourth, and fifth branch offices) from the expedited
approval process because the BOD and management had not:

   •   staffed loan operations and review properly while focusing on rapid growth,
       which had resulted in numerous administrative deficiencies and inadequate
       portfolio monitoring systems;

   •   adequately funded the ALLL;

   •   provided sufficient internal audit oversight; and

   •   implemented examiner recommendations in a timely manner.

The FDIC’s decision-making process for FPB’s branch applications included an
assessment of FPB’s financial data and branching strategy. In addition, pursuant to
sections 5 and 6 of the FDI Act, DSC officials evaluated FPB’s applications for branch
offices to conclude on the:

   •   financial history and condition of FPB,
   •   adequacy of FPB’s capital structure,
   •   future earnings prospects,
   •   general character and fitness of bank management,
   •   risk to the DIF, and
   •   convenience and needs of the community to be served.

DSC officials also evaluated the applications to determine whether FPB’s corporate
powers were consistent with the purposes of the FDI Act.

Before the FDIC approved FPB’s applications for its third and fourth branch offices, the
FDIC proactively required FPB to respond to the November 2006 examination
deficiencies, submit revised financial projections reflecting the proposed branches, and
discuss the bank’s earnings improvement plan. In its response, FPB projected net income
of $263,000, which DSC considered realistic. In addition, FPB stated that in August
2006, FPB had hired a chief credit officer, who was expected to have a positive impact on
credit administration and portfolio monitoring systems, and hired a new senior lender in
December 2006. Additionally, the BOD stated its commitment to correct the weaknesses
noted in the ROE and provided corrective action plans to address the weaknesses.


                                            15
Regarding FPB’s application for its fifth branch office, the FDIC requested FPB to
provide a copy of the bank’s strategic/business plans for 2007 and 2008, including
assumptions and branching plans; supporting assumptions for the 2007 budget; and
copies of CRE loan concentration reports provided to the BOD. The FDIC reviewed
FPB’s revised financial projections, which included the three branches in 2007 and a
conservatively maintained ALLL throughout the 2-year period and reflected a nominal
loss of $28,000 in 2007 and net income of $693,000 in 2008. However, from the time
FPB responded to the FDIC’s concerns related to the third and fourth branch offices to its
response for the fifth branch, the bank’s net income projections for 2007 had changed
from $263,000 to a projected net loss of $28,000—a decrease of $291,000.

Nevertheless, the FDIC concluded that:

   •   FPB’s business plan anticipated that future earnings opportunities would be
       enhanced by accessing new markets and lowering its cost of funds with new retail
       deposits generated by the branches;

   •   the bank’s CRE loan report reflected improved monitoring; and

   •   FPB’s capital was sufficient to support the business plan with projected Tier 1
       Leverage Capital Ratios of 10.3 percent at the end of 2007 and 8.4 percent at the
       end of 2008.

Additionally, FPB committed to the FDIC that it had no additional branching plans
through 2008. However, soon after FPB’s last branch office opened on July 16, 2007, the
FDIC’s offsite analysis and follow-up visitation conducted in July and August 2007,
respectively, identified significant deterioration in FPB’s financial condition, earnings,
and asset quality; and loan documentation and administration deficiencies, indicating
ineffective corrective actions to address prior examiner concerns and FPB’s deficient risk
management controls. Further, the FDIC assessed FPB’s branch applications based on
statutory requirements and delayed application approvals; however, the actions taken and
promised by FPB ultimately did not resolve examiner concerns, overall operational
deficiencies, or earnings performance issues (see Table 2).

Previous guidance related to business plans did not provide a definition of significant
deviations; accordingly, in June 2008, DSC’s ARO issued guidance for determining what
constitutes a major deviation or material change in business plans for de novo institutions
during the first 3 years of operation. That guidance states that examiners should consider
whether changes have occurred in growth levels, asset and liability mix or products
offered, and plans for branch offices or LPOs.

Although FPB had not developed a comprehensive CLP, examiners did not recommend
that the bank review and revise its CLP to adequately address the 13 plan elements listed
in the Examination Manual. FPB had not developed controls that could have identified
the specific circumstances under which secondary sources of funds should be used and
the manner in which those funds would be used to provide liquidity for the bank.


                                            16
     Subsequent to FPB’s failure, DSC issued additional guidance related to liquidity risk and
     CLPs. The FDIC’s Liquidity Risk Management guidance, dated August 26, 2008, urges
     the financial institution BOD to establish a formal CLP that establishes quantitative
     liquidity risk guidelines. The guidance also states that CLPs should identify the
     institution’s liquidity risk profile and the types of stress events that may be faced
     including, but not limited to, a deterioration in asset quality, becoming less than well
     capitalized, the need to fund unplanned asset growth, loss of access to market funding
     sources, and the impact of negative press coverage. The guidance also reiterates many of
     the CLP elements that FPB’s CLP did not include, as discussed earlier.


ASSET QUALITY

     FPB’s asset quality was rated 1 at its 2004 and 2005 examinations. At subsequent
     examinations, FPB’s asset quality rating was progressively downgraded, indicating that
     the bank’s level of risk and problem assets were significant and inadequately controlled
     and subjected the bank to potential losses that threatened the viability of the institution.
     By the May 2008 examination, examiners concluded that FPB’s asset quality or credit
     administration practices were critically deficient and presented an imminent threat to the
     institution’s viability.

     FPB’s asset quality deteriorated as total adversely classified items increased to over
     $65.7 million in 2008. In particular, loan classifications significantly increased, from
     $5.7 million in 2006 to over $60.1 million in 2008. Corresponding increases in the FPB’s
     adversely classified loans and ALLL were also significant (see Table 5). At the
     November 2006 examination, adversely classified loans represented 15.66 percent of
     capital, and by May 2008, adversely classified loans totaled more than 403 percent of
     capital.

     Table 5: FPB Asset Classifications and ALLL
                                                         Asset Quality
                                                     (Dollars in Thousands)
                                   Asset Classifications                           Analysis of ALLL

                                                                                              Increase in
                                                                Total           ALLL            ALLL
      Examination                                             Classified      Computed by     Required by
         Date        Substandard   Doubtful         Loss        Items            FPB          Examiners

     June 04               0           0             0            0              $80                0
     Dec 04                0           0             0            0              $398               0
     Nov 05                0           0              0           0             $1,201              0
     Nov 06              $4,649       $25          $1,061      $5,735           $2,640           $1,100
     Sept 07            $41,474        0           $3,232      $44,706          $3,606           $6,100
     May 08             $58,240      $392          $7,086      $65,718          $8,468           $3,400
    Source: ROEs for FPB.




                                                       17
      In addition to identification of the $5.7 million in adversely classified assets at the 2006
      examination, examiners identified another $4.6 million in assets as “Special Mention,”
      referring to loans that had potential weaknesses that deserved management’s close
      attention and, if left uncorrected, could result in deterioration of the status of those assets.


Examiner Concerns and Recommendations Regarding Asset Quality

      Examiner concerns regarding FPB’s asset quality related to its concentration in high-risk
      CRE/ADC loans and the bank’s lack of adequate loan documentation and administration
      (see Table 6, which follows). A significant portion of the CRE/ADC loan portfolio
      included high-risk terms, such as high loan-to-value ratios, an interest-only basis with
      balloon payments, and interest reserves used to capitalize interest expense.




                                                    18
  Table 6: Examples of Examiner Comments and Recommendations Regarding FPB’s
  Asset Quality
                      Examiner Comments*                                              Examination Dates
                                                                      June     Dec       Nov     Nov    Sept     May
                                                                      2004     2004      2005   2006    2007     2008
Overall conclusion on FPB asset quality
• Strong or satisfactory                                                9       9        9        9
• BOD and management were slow to identify and manage problem                                                9    9
  loans
CRE and ADC concentrations
• Concentration developing or already developed                                 9        9        9          9    9
• Increasing risk profile based on loan portfolio affected by an                                  9          9    9
  economic downturn
Adverse classifications
• Noticeable loan quality deterioration and significant increases in                              9          9    9
  adverse classifications and ALLL
Assessment of risk management practices
• Risk management, monitoring, and reporting practices ineffective                                9          9
  or inadequate
• Loan documentation and/or underwriting standards needed               9       9        9        9          9    9
  improvement
• ALLL methodology adequate                                                                       9
• ALLL methodology inadequate                                                                                9    9
• ALLL adequately funded                                                        9        9
• ALLL not adequately funded                                                                      9          9    9
• Inadequate attention to examiner and auditor recommendations                                    9          9    9
• Loan policy lacking specific parameters for limiting concentrations                             9          9
  and promoting portfolio diversity
• Inaccurate internal watch list that did not include all adversely                                          9
  classified loans
Examiner recommendations
• Document the review of appraisals and/or include appraisal reports    9                         9          9    9
  in loan files
• Provide comprehensive reports on loan concentration by collateral     9                         9          9
  type, industries, or geographic boundaries or establish
  concentration limits
• Document and/or improve the ALLL methodology and allowance            9                         9          9    9
• Improve internal reporting on interest reserves, speculative                                    9          9
  lending, and loans exceeding supervisory loan-to-value guidelines
• Ensure real estate loans in excess of the supervisory loan-to-value           9                 9          9    9
  limits do not exceed total capital
Source: ROEs for FPB.
* Refer to Table 2 for additional examples of examiner comments and recommendations related to FPB’s asset
quality, including those for the FDIC’s August 2007 visitation.




                                                           19
Concentration in CRE and ADC Loans

      FPB’s concentration in CRE loans was first noted during the FDIC’s December 2004
      examination when those loans comprised 65 percent of the loan portfolio. DSC ROEs
      and examination work papers documented that steady and rapid increases in CRE-related
      exposure followed as indicated below.

          •   March 2005. CRE loans totaled more than 228 percent of Tier 1 capital.

          •   September 2006. CRE exposure totaled 127 percent of Tier 1 Leverage Capital.
              Including multi-family and other non-farm nonresidential loans increased the
              bank’s risk exposure to 342 percent of Tier 1 Leverage Capital. Further,
              examiners noted that the degree of exposure was likely underreported because the
              bank recognized that an undetermined amount of loans might need to be
              reclassified as CRE loans.

          •   June 2007. CRE loans represented 388 percent of total capital. Of that amount,
              ADC loans comprised 49 percent of all CRE loans and were equal to 190 percent
              of total capital—nearly double the benchmark for further supervisory review.
              Classified assets were 129 percent of Tier 1 Capital and the ALLL, which was
              deficient by $6.1 million. Additionally, loans totaling a substantial $15.2 million
              were downgraded and adversely classified, and loans totaling an additional
              $9 million were not on FPB’s internal watch list.

          •   May 2008. The level of concentration was extremely high given the fact that the
              bank was critically undercapitalized and the amount of CRE loans was significant.

      On December 12, 2006, the federal banking agencies issued joint guidance on CRE
      lending entitled, Guidance on Concentrations in Commercial Real Estate Lending, Sound
      Risk Management Practices. According to the guidance, the FDIC and the other federal
      banking agencies acknowledged that a concentration in CRE loans, coupled with weak
      loan underwriting and depressed CRE markets, has contributed to significant loan
      losses. 8

      However, FPB focused and concentrated its loan portfolio in CRE/ADC loans, which
      increased its level of risk, and failed to ensure that adequate risk management controls
      were developed and implemented. Examiners recommended several actions to mitigate
      the bank’s CRE risk. However, bank management failed to implement actions to
      adequately address those recommendations, and asset quality continued to decline.
      Further, beginning with the November 2006 examination, and continuing through the
      May 2008 examination, examiners identified a high level of adverse classifications along
      with significant downgrades of classified loans, an inadequate ALLL methodology, and

      8
       The FDIC also issued FIL 22-2008 on March 17, 2008, entitled, Managing Commercial Real Estate
      Concentrations in a Challenging Environment, which re-emphasized the importance of strong capital and
      ALLL and loan risk-management practices for state nonmember institutions with significant CRE and
      construction and development loan concentrations.

                                                        20
inadequately funded ALLL. As asset quality declined and losses were properly
recognized, FPB’s liquidity position became deficient, and earnings and capital were
eroded.


Interest Reserves. FPB did not have appropriate controls related to the use and
reporting of interest reserves. FPB’s December 8, 2003 loan policy stated the bank
should include provisions in the loan agreement that provide for the discontinuation of
funding of the interest reserve in the event the project falls behind projected performance
goals. However, FPB did not always follow this policy in that management extended or
re-funded the interest reserves for many loans. In addition, FPB did not maintain
complete records on the extent and number of loans funded with interest reserves or the
extent of loans for which interest reserves had been funded multiple times. Through
reconstruction of FPB records, the OIG determined that FPB used about $8.9 million in
interest reserves to fund loans. Of that amount, $4.5 million (about 51 percent) was
associated with FPB’s adversely classified loans. The use of interest reserves helped to
mask the deterioration of these loans.

DSC has issued guidance on the use of interest reserves. In November 2007, the ARO
issued guidance entitled, Identification and Analysis of Interest Reserves at Risk
Management Examinations. In April 2008, DSC issued examiner guidance reiterating
the November 2007 ARO guidance. In addition, in June 2008, DSC issued guidance to
examiners and FDIC-supervised financial institutions on the use of interest reserves that
describes the use of interest reserves in ADC lending, examines the risk this underwriting
practice could present, and identifies “red flags” that should alert lenders to potential
problems at each stage of the ADC cycle.


Allowance for Loan and Lease Losses. FPB’s methodology for determining the ALLL
did not comply with interagency policy. According to the Interagency Policy Statement
on the Allowance for Loan and Lease Losses (FIL-105-2006), dated December 13, 2006,
each institution must analyze the collectibility of its loans and maintain an ALLL at a
level that is appropriate and determined to be in accordance with Generally Accepted
Accounting Principles (GAAP). 9 An appropriate ALLL covers estimated loan losses on
individually evaluated loans that are determined to be impaired as well as estimated loan
losses inherent in the remainder of the loan and lease portfolio.



9
  Interagency Policy Statement on the Allowance for Loan and Lease Losses (FIL-105-2006), dated
December 13, 2006. The federal banking agencies originally issued a 1993 policy statement that described
the responsibilities of the BOD and management of banks and savings associations and of examiners
regarding the ALLL. The December 2006 policy reiterated that guidance and made the policy applicable to
credit unions. Further, the policy provides key concepts and requirements pertaining to the ALLL included
in GAAP and existing supervisory guidance and describes the nature and purpose of the ALLL; the
responsibilities of BODs, management, and examiners; factors to be considered in the estimation of the
ALLL; and the objectives and elements of an effective loan review system, including a sound loan grading
system.

                                                   21
Although the November 2006 examination concluded that FPB’s ALLL methodology
was adequate, examiners recommended that FPB increase the ALLL by $1.1 million due
to adversely classified loans that totaled $5.7 million. However, in subsequent
examinations, examiners’ conclusions regarding the adequacy of the ALLL methodology
changed. Specifically, examiners concluded that FPB’s ALLL methodology did not
comply with interagency guidance included in FIL-105-2006. Examiners recommended
significant increases in FPB’s ALLL to compensate for FPB’s inaccurate methodology
and to provide for the increased amount of adversely classified loans examiners
identified.

    •   At the follow-up visitation in August 2007, adversely classified items totaled
        $45 million, representing 129 percent of Tier 1 Capital and ALLL. Of the
        $45 million, $15.2 million represented adversely classified loans that were
        downgraded from FPB’s internal watch list, and $9 million represented adversely
        classified loans that bank management had not included on the watch list. As a
        result, the ALLL had a shortfall of $6.1 million.

    •   The May 2008 examination determined that adversely classified assets, including
        $60.1 million in loans, had increased to $65.7 million, representing 403 percent of
        Tier 1 Capital and ALLL, resulting in a shortfall of $3.4 million in ALLL.

Examiners determined that shortages in ALLL could be attributable to the bank’s slow
identification of problem loans and to an ineffective ALLL methodology that failed to
follow the interagency policy on ALLL and GAAP. As FPB’s assets deteriorated and the
need to substantially increase the ALLL became apparent, earnings and capital were
significantly impacted. FPB reported net losses for almost each year of operation (see
Table 7).

Table 7: FPB Net Income or Loss (Dollars in Thousands)
    2003           2004            2005              2006             2007       2008*
   ($432)          ($961)           $19              ($546)         ($18,997)   (12,448)
                          st
Source: FPB December 31 UBPR data for each year, except as noted for 2008.
* Data is as of June 30, 2008 UBPR Report.



According to the FDIC’s documentation on FPB’s applications, revised financial
projections provided by FPB reflected that FPB expected a nominal loss of $28,000 for
2007 and showed a net income of $693,000 for 2008. However, as indicated in Table 7,
the financial projections were grossly inaccurate. Further, during the exit meeting with
OFR examiners after the bank’s September 2007 examination, FPB officials attributed
the bank’s earnings problem to the bank’s strategy for new branch offices at a time when
the real estate market began to decline and stated that the lack of earnings was a “self-
inflicted” problem.




                                                22
Regulatory Supervision Related to Asset Quality

      FPB’s loan administration deficiencies should have warranted greater supervisory
      concern during the November 2006 examination when FPB was still in a de novo status
      and had experienced significant growth in its loan portfolio between 2004 and 2006. In
      addition, FPB exhibited the following risk factors that DSC has determined to be
      associated with de novo institutions:

          •   inexperienced management and/or high turnover,
          •   weak oversight by the BOD,
          •   rapid asset growth, and
          •   a dominant BOD member.

      FPB’s BOD and management aggressively grew its loan portfolio although the bank had
      not adequately identified, measured, monitored, or controlled risks; including
      implementing actions to address examiner concerns related to loan documentation and
      administration deficiencies. Specifically, as a result of the 2006 examination, DSC
      concluded that FPB’s loan portfolio had begun to deteriorate noticeably and was highly
      concentrated in CRE/ADC loans, which presented a higher risk for the bank; loan
      administration issues, which had been identified as early as the 2004 examination and by
      internal auditors in 2004 and 2005, remained uncorrected or in need of improvement.
      DSC also concluded that FPB’s risk profile was increasing.

      According to the Examination Manual, the asset quality rating reflects the quantity of
      existing and potential credit risk associated with the loan and investment portfolios, and
      other assets. The ability of management to identify, measure, monitor, and control credit
      risk and the evaluation of the adequacy of the ALLL are also reflected in the asset quality
      rating. The Examination Manual provides guidance on which rating level is appropriate
      based on issues identified by examiners. For example, the Examination Manual states
      that a rating of 3 is assigned when:

          •   Asset quality or credit administration practices are less than satisfactory and there
              is a general need to improve those practices.

          •   Trends may be stable or indicate deterioration in asset quality or an increase in
              risk exposure.

          •   The level and severity of classified assets, other weaknesses, and risks require an
              elevated level of supervisory concern.

      At the November 2006 FDIC examination, examiners assessed the condition of the
      bank’s loan portfolio and concluded that asset quality was satisfactory; however,
      noticeable loan portfolio deterioration had occurred since the prior examination.
      Adversely classified loans exceeded $5.7 million, which represented 15.66 percent of
      Tier 1 Leverage Capital. In addition, loans cited as Special Mention for their
      underwriting deficiencies exceeded $4.6 million. Collectively, $10.3 million in criticized


                                                   23
loans represented 28.31 percent of Tier 1 Leverage Capital. Examiners also concluded
that, while the level and severity of classified loans was low in relation to capital,
noticeable loan portfolio deterioration had occurred since the last examination.
Examiners also noted that the emergence of substandard and loss loans in the bank’s third
year of operations was unusual and reflected increased significance given the elevated
and increasing risk profile of the institution and the bank’s pattern of weak underwriting
practices. As a result, examiners made several recommendations to improve FPB’s risk
management for CRE/ADC loans (see Tables 2 and 6).

In addition, at the 2006 examination, although examiners concluded that FPB’s
methodology for determining the adequacy of the ALLL was adequate, examiners also
concluded that, based on the significant amount of adversely classified loans, FPB would
need to increase the ALLL by up to $1.1 million by December 31, 2006.

Further, at the November 2006 examination, examiners noted that risk management
policies and practices for the loan function were not adequate and identified numerous
loan administration shortcomings that appeared to be systemic in nature. Despite modest
improvements since the prior examination related to loan documentation and
administration weaknesses, the examiners emphasized the need for further improvement.
For example, the ALLL was inadequate, a significant number of loan files were found to
be deficient, and exceptions to supervisory loan-to-value guidelines reported to the BOD
each quarter were found to improperly exclude certain loans.

However, the examiners’ evaluation of FPB’s asset quality at the November 2006
examination was based on the total of adversely classified loans—15.66 percent of Tier 1
Leverage Capital—and did not consider the systemic nature of deficiencies in loan
documentation and administration or a qualitative assessment of the bank’s elevated CRE
risk exposure, which the examiner concluded might adversely impact the bank’s financial
condition. DSC officials stated that the loan documentation and administration
deficiencies identified during the 2006 examination were addressed in the examiners’
decision to downgrade FPB’s management to 3 and asset quality to 2.

After the November 2006 examination, DSC’s offsite monitoring of FPB’s condition in
July 2007 reflected a significant increase in past due and nonaccrual loans and additional
charge-offs based on March 31, 2007 financial data. Although FPB’s earnings continued
to be weak, the bank was scheduled to open three branch offices in 2007. As a result of
these concerns, the DSC regional office requested the DSC field office to conduct a
targeted visitation to review the actions taken by FPB management to:

   •   correct the deficiencies noted in the prior FDIC examination,
   •   analyze loans charged off and increases in past due loans,
   •   review earnings, and
   •   review risk management practices over the bank’s significant real estate exposure.

Shortly after the visitation began, the examiner noted significant deterioration in the loan
portfolio that prompted the OFR to accelerate its scheduled full-scope examination,


                                             24
    which was conducted in September 2007. The FDIC also issued a problem bank
    memorandum in January 2008.

    On February 8, 2008, the OFR and the FDIC jointly issued an MOU 10 to FPB. The
    MOU, among other things, required FPB to:

         •   Increase the BOD’s participation in the supervision of the bank’s operations.
         •   Obtain qualified management and staffing for the loan department.
         •   Improve asset quality.
         •   Amend loan and other policies to establish:
                 o   stronger, appropriate loan concentration guidelines for all loan types;
                 o   procedures and criteria for approving loan policy exceptions;
                 o   guidelines for establishing and monitoring interest reserves, appropriate
                     loan-to-value limits, and determining realistic collateral values;
                 o   specific criteria for the use of interest-only loans with balloon payments;
                 o   comprehensive ADC loan risk management systems; and
                 o   requirements for obtaining current financial statements and/or tax returns
                     for borrowers and guarantors and ensuring insurance coverage on any
                     collateral.
         •   Develop a written plan to monitor concentrations of risk in relation to total capital
             that included: appropriate limits for concentrations of credit by industry, product
             line, type of collateral, and borrower; and establish limits and identify the risks
             associated with the concentration of CRE loans.

    Although the 2008 MOU addressed issues related to FPB’s asset quality and loan
    administration and documentation, greater concern during the 2006 examination,
    regarding the severity of these deficiencies and FPB’s history of not adequately
    addressing these issues for more than 2 years, could have led to elevated supervisory
    attention and earlier supervisory action.


IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    The FDIC evaluated FPB’s capital position; assigned capital component ratings; included
    capital-related provisions in informal and formal actions, including a PCA Directive, in
    10
      The OFR and FDIC initially considered issuing a Cease and Desist Order (C&D) against FPB. However,
    in the decision-making process regarding the type of supervisory action to impose, OFR considered actions
    taken by FPB’s new management to address the bank’s financial condition and asset quality-related issues
    and decided to issue an MOU rather than a C&D. The MOU included the same provisions that had been
    proposed for the C&D.

                                                       25
accordance with regulatory guidelines; and provided PCA notification letters. The
FDIC’s November 2005 examination concluded that FPB’s declining trend in capital
ratios was a result of the bank’s asset growth and that, in order to remain well capitalized
given its significant growth rate, FPB had raised additional capital through a second stock
offering. In fact, FPB’s rapid growth from 2003 to 2006—the bank’s de novo period—
was supported by significant stock issuances to raise more than $35 million in capital, as
shown in Table 8 below.

Table 8: FPB Capital Stock Issuances
                             2003         2004            2005           2006        2007
                                                        ($000)
Common Stock Issued         $8,616        $144            $8,192        $18,345       $0
Cumulative                   $8,616       $8,760        $16,952         $35,297     $35,297
Source: An FDIC Supervisory History memorandum.



As of December 31, 2007, DSC officials concluded that FPB’s capital position had
deteriorated and, considering FPB’s decline in capital, excessive level of problem assets,
significant concentration in CRE loans relative to capital, and questionable earning
prospects, the institution’s capital was considered to be marginal. On February 8, 2008,
the FDIC and OFR jointly issued an MOU. The MOU included provisions related to
capital and required FPB to:

   •   Submit, within 60 days, a capital plan for maintaining a Tier 1 Capital ratio of no
       less than 8 percent. The plan, at a minimum, was to address FPB’s current and
       future capital requirements, including the maintenance of adequate risk-based and
       Tier 1 Capital ratios; the volume of FPB’s adversely classified and problem
       assets; the bank’s anticipated level of earnings; and the source and timing of
       additional funds to fulfill future ALLL and capital requirements.

   •   Develop a written capital plan acceptable to the OFR and FDIC to enable the bank
       to monitor concentrations of risk in relation to total capital.

In its Consolidated Report of Condition and Income (Call) Report, dated December 31,
2007, FPB reported that it held brokered deposits totaling $13.5 million. On March 14,
2008, the FDIC issued a letter restricting FPB’s use of brokered deposits because FPB’s
capital category fell below the well capitalized category. In response to the FDIC’s letter,
FPB notified the FDIC that it had not rolled over or renewed any brokered deposits.

On May 1, 2008, the FDIC notified FPB that based on its March 31, 2008 Call Report
data, FPB was considered to be significantly undercapitalized for PCA purposes. The
FDIC required FPB to develop and submit a capital restoration plan (CRP) within
45 days of April 30, 2008. The plan was to provide information on:




                                             26
       •   steps the bank would take to become adequately capitalized;

       •   levels of capital to be attained during each year in which the plan would be in
           effect;

       •   how the bank would comply with the restrictions and requirements related to asset
           growth restrictions and prior approval of acquisitions, new branches, and new
           lines of business; and

       •   types and levels of activities in which the bank would engage.

    The bank submitted its CRP on June 6, 2008, which the FDIC reviewed and requested
    FPB to update. On June 25, 2008, the FDIC issued a PCA Directive. Mandatory actions
    included the submission of another CRP and restrictions on asset growth, acquisitions,
    new activities, new branches, payment of dividends or making any other capital
    distribution, or payment of management fees.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. In addition, the use of PCA Directives depends on the accuracy of
    capital ratios in a financial institution’s Call Reports. FPB’s capital remained in the well
    capitalized to adequately capitalized range long after its operations had begun to
    deteriorate because of problems related to management, asset quality, risk management
    controls, and net losses. In particular, the ALLL was significantly underfunded which
    overstated capital and underreported the deterioration of the loan portfolio.

    FPB’s efforts to comply with the MOU to improve the bank’s condition and raise
    additional capital proved unsuccessful. Further, by the time FPB’s capital level fell
    below the required threshold necessary to implement PCA, the bank’s condition had
    deteriorated to the point at which the institution could not raise additional needed capital,
    estimated to total $30 million, through its BOD or find other investors to assist in
    capitalizing the bank.


CORPORATION COMMENTS

    On February 12, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 3 of this report. In its response,
    DSC agreed with the OIG’s conclusions regarding the causes of FPB’s failure and the
    resulting material loss to the DIF, and DSC’s supervisory activities related to FPB. DSC
    also agreed that the November 2006 examination results related to the loan
    documentation and administration deficiencies should have warranted greater supervisory
    action.

    DSC also stated that it has undertaken a number of initiatives related to the supervision of
    financial institutions that have high-risk lending activities, including concentrations in
    CRE and/or the use of interest reserves. Additionally in December 2008, DSC conducted

                                                 27
on-site visitations of certain financial institutions that resulted in downgraded ratings and
initiating corrective programs.

It should be noted the OIG did not conclude on specific examination ratings or
supervisory actions. Rather, we evaluated the FDIC’s overall supervision of the
institution. In this regard, we concluded that greater supervisory concern was warranted
as a result of the 2006 examination due to the deficiencies identified, the de novo status
of the institution, and its increasing risk profile.




                                             28
                                                                                     APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, the Inspector General of the appropriate federal banking agency
      shall prepare a report to that agency, reviewing the agency’s supervision of the
      institution. The FDI Act requires that the report be completed within 6 months after it
      becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from August 2008 to January 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it was not feasible to address certain aspects of the standards, as
      described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of FPB’s operations, which opened on
      December 8, 2003, until its failure on August 1, 2008. Our review also entailed an
      evaluation of the regulatory supervision of the institution over the same period and the
      application process for FPB.

      To achieve the audit objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports and examination work papers
                 prepared by the FDIC and the State of Florida’s Office of Financial Regulation
                 examiners from 2004 to 2008.

             •   Reviewed the following:
                   • Bank data and correspondence maintained at the DSC’s ARO and Tampa
                     Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor at the offices of Hacker, Johnson &
                       Smith, in Tampa, Florida; and CPA Associates in Bradenton, Florida.




                                                      29
                                                                                        APPENDIX 1


                 •   Bank records maintained by DRR in Dallas, Texas.

                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:
                  • DSC management in Washington, D.C.; Atlanta, Georgia; and Tampa,
                    Florida.

                 •   DRR officials at the Dallas Regional Office.

                 •   FDIC examiners from the DSC Tampa Field Office who participated in FPB
                     examinations.

           •   Met with officials from the State of Florida’s Office of Financial Regulation in
               Tallahassee, Florida, to discuss their historical perspective of the institution, its
               examinations, state banking laws, and other activities regarding the state’s
               supervision of the bank.

           •   Researched various banking laws and regulations, including State of Florida
               banking laws.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of FPB’s
      management controls pertaining to its operations as discussed in the finding section of
      this report. For purposes of the audit, we did not rely on computer-processed data to
      support our significant findings or conclusions. Our review centered on interviews,
      ROEs, and correspondence and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, manage and measure results to
      justify appropriations and authorizations, and design budgets that reflect strategic
      missions. For this material loss review, we did not assess the strengths and weaknesses
      of DSC’s annual performance plan in meeting the requirements of the Results Act
      because such an assessment was not part of the audit objectives. DSC’s compliance with
      the Results Act is reviewed in OIG program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with the provisions of PCA and limited tests to
      determine compliance with certain aspects of the FDI Act. Additionally, we assessed the
      risk of fraud and abuse related to our objectives in the course of evaluating audit
      evidence.


                                                     30
                                                                                APPENDIX 2
                              GLOSSARY OF TERMS


          Term                                                 Definition
Adversely Classified        Assets subject to criticism and/or comment in an ROE. Adversely classified
Assets                      assets are allocated on the basis of risk (lowest to highest) to three
                            categories:
                            •   Substandard,
                            •   Doubtful, and
                            •   Loss.

Concentration               A concentration is a significantly large volume of economically related
                            assets that an institution has advanced or committed to a certain industry,
                            person, entity, or affiliated group. These assets may, in the aggregate,
                            present a substantial risk to the safety and soundness of the institution.

Loan Loss Reserve also      Federally insured depository institutions must maintain an ALLL level that
called Allowance for Loan   is adequate to absorb the estimated credit losses associated with the loan
and Lease Losses (ALLL)     and lease portfolio (including all binding commitments to lend). To the
                            extent not provided for in a separate liability account, the ALLL should also
                            be sufficient to absorb estimated loan losses associated with off-balance
                            sheet loan instruments such as standby letters of credit.

Memorandum of               An informal corrective administrative action for institutions considered to
Understanding (MOU)         be of supervisory concern but which have not deteriorated to the point
                            where they warrant formal administrative action. As a general rule, an
                            MOU is to be considered for all institutions rated a composite 3.

Prompt Corrective Action    The purpose of PCA is to resolve the problems of insured depository
(PCA)                       institutions at the least possible long-term cost to the DIF. Part 325 of the
                            FDIC Rules and Regulations, 12 Code of Federal Regulations section
                            325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                            FDI Act, 12 United States Code section 1831(o), by establishing a
                            framework for taking prompt supervisory actions against insured
                            nonmember banks that are less than adequately capitalized. The following
                            terms are used to describe capital adequacy: Well Capitalized, Adequately
                            Capitalized, Undercapitalized, Significantly Undercapitalized, and Critically
                            Undercapitalized.

Uniform Bank                The UBPR is an individual analysis of a financial institution’s financial data
Performance Report          and ratios that includes extensive comparisons to peer group performance.
(UBPR)                      The Federal Financial Institutions Examination Council produces the UBPR
                            quarterly, from Call Report data submitted by banks, for use by banking
                            supervisors, bankers, and the general public.




                                            31
                       APPENDIX 3

CORPORATION COMMENTS
     APPENDIX 3




33
     APPENDIX 3




34
                                                                   APPENDIX 4
                     ACRONYMS IN THE REPORT


Acronym                                Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
ARO       Atlanta Regional Office
BOD       Board of Directors
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CD        Certificate of Deposit
C&D       Cease and Desist
CFO       Chief Financial Officer
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
CRP       Capital Restoration Plan
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FHLB      Federal Home Loan Bank
FIL       Financial Institution Letter
FPB       First Priority Bank
GAAP      Generally Accepted Accounting Principles
LPO       Loan Production Office
MOU       Memorandum of Understanding
OFR       Office of Financial Regulation
OIG       Office of Inspector General
PCA       Prompt Corrective Action
ROE       Report of Examination
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institution Rating System




                                     35
